                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-08-02-0010                                                                    Page 1 of1



          We conducted an investigative review of an institution 1 that had an award2 with a large3 post­
          expiration draw-down of funds.

         Subsequent investigation, which included a thorough review of source documentation and a site
         visit, revealed an overpayment to the award4 , post-expiration charges 5, and a post-expiration
         transfer onto the award without proper supporting documentation6 . The university reimbursed
         NSF 7 and instituted new policies and procedures to insure proper financial administration ofNSF
         awards in the future.

         Accordingly, this investigation is closed.




         2


         4


         6
         7




NSF OIG Form 2 (11102)
